                                                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                           OFFICE OF THE INSPECTOR GENERAL
                                                                            OFFICE OF AUDITS




                                   Final Audit Report 


  Subject:

               AUDIT OF INFORMATION SYSTEMS 

            GENERAL AND APPLICATION CONTROLS AT 

                MEDCO HEALTH SOLUTIONS, INC. 

                                          Pharmacy I3enefit Manager for:
                           •   BlueCross BlueShield Federal Employee Program
                           •   American Postal Workers Union Health Plan
                           •   Government Employees Health Association
                           •   SAMBA Federal Employee Benefit Association
                           •   Foreign Service Benefit Plan



                                            Report No. lA-1O-OO-ll-OS2

                                            Date:                March 1 4, 201 2




                                                          --CAUTION-­
This audit report has been distributed to Federal and l\on-Federal officials who are responsible for the administration of the audited
contract. This audit report may contain proprietary data which is protected by ."ederallaw (18 ES.C. 1905). Therefore. while this audit
report is available under the Freedom of Information Act and made available to the public on the OIG webpage. caution needs to be
exercised before releasing the report to the general public as it may contain proprietary information that was redacted from the publicly
                        UNITED STATES OFFICE OF PERSONNEL MANAGEMENT
                                          Washington, DC 20415


  Of1ice of the
Inspector General




                                         Audit Report 



                    FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM

                            MEDeo HEALTH SOLUTIONS, INC.
                                Pharmacy Benefit Manager For:
                            BLUECROSS BLUESHIELD ASSOCIATION 

                               CONTRACT 1039: CODES 104, lOS, 111, 112 

                       AMERICAN POSTAL WORKERS UNION HEALTH PLAN 

                               CONTRACT 1370: CODES 471, 472, 474, 475 

                       GOVERNMENT EMPLOYEES HEAL TH ASSOCIATION 

                               CONTRACT 1063: CODES 311, 312, 314, 315 

                      SAMBA FEDERAL EMPLOYEE BENEFIT ASSOCIATION 

                               CONTRACT 1074: CODES 441, 442, 444, 445 

                              FOREIGN SERVICE BENEFIT PLAN 

                                   CONTRACT 1062: CODES 401, 402 





                                Report No. lA-lO-OO-ll-052

                                Date:           03/14/12




                                                                     Michael R. Esser
                                                                     Assistant Inspector General
                                                                       for Audits




        www.opm.gov                                                                   www.usajobs.gov
                         UNITED STATES OFFICE OF PERSONNEL MANAGEMENT 

                                                Washington. DC 20415 



  Ortice of the
Inspector General




                                          Executive Summary 



                    FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM

                                MEDCO HEALTH SOLUTIONS, INC.
                                   Pharmacy Benefit Manager For:
                               BLUECROSS BLUE SHIELD ASSOCIATION 

                                    CONTRACT 1039; CODES 104, 105, 111, 112 

                       AMERICAN POSTAL WORKERS UNION HEALTH PLAN 

                                    CONTRACT 1370; CODES 471, 472, 474, 475 

                        GOVERNMENT EMPLOYEES HEALTH ASSOCIATION 

                                    CONTRACT 1063; CODES 311, 312, 314, 315 

                       SAMBA FEDERAL EMPLOYEE BENEFIT ASSOCIATION 

                                    CONTRACT 1074: CODES 441, 442, 444, 445 

                                   FOREIGN SERVICE BENEFIT PLAN 

                                        CONTRACT 1062; CODES 401, 402 





                                      Report No. lA-lO-OO-ll-OS2

                                      Date:             03/14/12




       This final report discusses the results of our audit of general and application controls over the
       information systems at Medco Health Solutions, Inc.

       Our audit focused on the claims processing applications used to adjudicate Federal Employees
       Health Benefits Program (FEHBP) claims for Medco, as well as the various processes and
       information technology (IT) systems used to support these applications. We documented
       controls in place and opportunities for improvement in each of the areas below.




        www.opm.gov                                                                             www.usajobs.goll
Security Management
Medco has established a comprehensive series of IT policies and procedures to create an
awareness of IT security at the Plan. We also verified that Medco has adequate human resources
policies related to the security aspects of hiring, training, transferring, and terminating
employees.

Access Controls
We found that Medco has implemented numerous physical controls to prevent unauthorized
access to its facilities, as well as logical controls to prevent unauthorized access to its
information systems. However, we found that Medco’s data center does not require two-factor
authentication for access and that there is no documented review of system administrator
activity.

Configuration Management
Medco has developed formal policies and procedures providing guidance to ensure that system
software is appropriately configured and updated, controlling system software configuration
changes, and monitoring configuration through vulnerability scanning.

Contingency Planning
We reviewed Medco’s business continuity plans and concluded that they contained the key
elements suggested by relevant guidance and publications. We also determined that these
documents are reviewed, updated, and tested on a periodic basis.

Claims Adjudication
Medco has implemented many controls in its claims adjudication process to ensure that FEHBP
claims are processed accurately. However, we found that Medco does not use the Office of
Personnel Management (OPM) debarred provider listing to update its master pharmacy database.
We also recommend that Medco implement several system modifications to ensure that its
claims processing systems adjudicate FEHBP claims in a manner consistent with the OPM
contract and other regulations.

Health Insurance Portability and Accountability Act (HIPAA)
Nothing came to our attention that caused us to believe that Medco is not in compliance with the
HIPAA security and privacy regulations.




                                               ii
                                                                Contents

                                                                                                                                              Page
Executive Summary ......................................................................................................................... i
I. Introduction .................................................................................................................................1
    Background ................................................................................................................................ 1
    Objectives ................................................................................................................................... 1
    Scope .......................................................................................................................................... 2
    Methodology .............................................................................................................................. 2
    Compliance with Laws and Regulations .................................................................................... 3
II. Audit Findings and Recommendations .......................................................................................4
    A. Security Management ............................................................................................................ 4
    B. Access Controls ..................................................................................................................... 4
    C. Configuration Management ................................................................................................... 6
    D. Contingency Planning ........................................................................................................... 7
    E. Claims Adjudication ............................................................................................................. 7
    F. Health Insurance Portability and Accountability Act ......................................................... 14
III. Major Contributors to This Report ..........................................................................................15

Appendix: Medco’s December 1, 2011 response to the draft audit report issued October 5, 2011.
                                       I. Introduction
This final report details the findings, conclusions, and recommendations resulting from the audit
of general and application controls over the information systems responsible for processing
Federal Employees Health Benefits Program (FEHBP) claims by Medco Health Solutions, Inc.
(Medco).

The audit was conducted pursuant to applicable FEHBP contracts; 5 U.S.C. Chapter 89; and 5
Code of Federal Regulations (CFR) Chapter 1, Part 890. The audit was performed by the U.S.
Office of Personnel Management’s (OPM) Office of the Inspector General (OIG), as established
by the Inspector General Act of 1978, as amended.

Background
The FEHBP was established by the Federal Employees Health Benefits Act (the Act), enacted on
September 28, 1959. The FEHBP was created to provide health insurance benefits for federal
employees, annuitants, and qualified dependents. The provisions of the Act are implemented by
OPM through regulations codified in Title 5, Chapter 1, Part 890 of the CFR. Health insurance
coverage is made available through contracts with various carriers that provide service benefits,
indemnity benefits, or comprehensive medical services.

Medco is the pharmacy benefit manager responsible for processing prescription drug claims on
behalf of the following FEHBP insurance carriers:
      •    Blue Cross Blue Shield (BCBS) Federal Employee Program - contract CS 1039;
      •    American Postal Workers Union Health Plan - contract CS 1370;
      •    Government Employees Health Association (GEHA) - contract CS 1063;
      •    SAMBA Federal Employee Benefit Association - contract CS 1074; and
      •    Foreign Service Benefit Plan (FSBP) - contract CS 1062.

This was our first audit of Medco’s general and application controls. We also reviewed Medco’s
compliance with the Health Insurance Portability and Accountability Act (HIPAA).

All Medco personnel that worked with the auditors were particularly helpful and open to ideas
and suggestions. They viewed the audit as an opportunity to examine practices and to make
changes or improvements as necessary. Their positive attitude and helpfulness throughout the
audit was greatly appreciated.

Objectives
The objectives of this audit were to evaluate controls over the confidentiality, integrity, and
availability of FEHBP data processed and maintained in Medco’s IT environment.
We accomplished these objectives by reviewing the following areas:
  •       Security management;
  •       Access controls;

                                                  1
    •    Configuration management;
    •    Segregation of duties;
    •    Contingency planning;
    •    Application controls specific to Medco’s claims processing systems; and,
    •    HIPAA compliance.

Scope
This performance audit was conducted in accordance with generally accepted government
auditing standards issued by the Comptroller General of the United States. Accordingly, we
obtained an understanding of Medco’s internal controls through interviews and observations, as
well as inspection of various documents, including information technology and other related
organizational policies and procedures. This understanding of Medco’s internal controls was
used in planning the audit by determining the extent of compliance testing and other auditing
procedures necessary to verify that the internal controls were properly designed, placed in
operation, and effective.

The scope of this audit centered on the information systems used by Medco to process
prescription benefit claims for FEHBP members. The business processes reviewed are primarily
located in Medco’s Franklin Lakes, New Jersey facility.

The on-site portion of this audit was performed in June and July of 2011. We completed
additional audit work before and after the on-site visits at our office in Washington, D.C. The
findings, recommendations, and conclusions outlined in this report are based on the status of
information system general and application controls in place at Medco as of September 9, 2011.

In conducting our audit, we relied to varying degrees on computer-generated data provided by
Medco. Due to time constraints, we did not verify the reliability of the data used to complete
some of our audit steps but we determined that it was adequate to achieve our audit objectives.
However, when our objective was to assess computer-generated data, we completed audit steps
necessary to obtain evidence that the data was valid and reliable.

Methodology
In conducting this audit, we:
•       Gathered documentation and conducted interviews;
•       Reviewed Medco’s business structure and environment;
•       Performed a risk assessment of Medco’s information systems environment and applications,
        and prepared an audit program based on the assessment and the Government Accountability
        Office's (GAO) Federal Information System Controls Audit Manual (FISCAM); and,
•       Conducted various compliance tests to determine the extent to which established controls and
        procedures are functioning as intended. As appropriate, we used judgmental sampling in
        completing our compliance testing.


                                                   2
Various laws, regulations, and industry standards were used as a guide to evaluating Medco’s
control structure. This criteria includes, but is not limited to, the following publications:
•   Office of Management and Budget (OMB) Circular A-130, Appendix III;
•   OMB Memorandum 07-16, Safeguarding Against and Responding to the Breach of
    Personally Identifiable Information;
•   Information Technology Governance Institute’s CobiT: Control Objectives for Information
    and Related Technology;
•   GAO’s FISCAM;
•   National Institute of Standards and Technology’s Special Publication (NIST SP) 800-12,
    Introduction to Computer Security;
•   NIST SP 800-14, Generally Accepted Principles and Practices for Securing Information
    Technology Systems;
•   NIST SP 800-30, Risk Management Guide for Information Technology Systems;
•   NIST SP 800-34, Contingency Planning Guide for Information Technology Systems;
•   NIST SP 800-41 Revision 1, Guidelines on Firewalls and Firewall Policy;
•   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
    Systems;
•   NIST SP 800-61, Computer Security Incident Handling Guide;
•   NIST SP 800-66 Revision 1, An Introductory Resource Guide for Implementing the HIPAA
    Security Rule; and,
•   HIPAA Act of 1996.

Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether Medco’s practices were
consistent with applicable standards. While generally compliant, with respect to the items tested,
Medco was not in complete compliance with all standards as described in the “Audit Findings
and Recommendations” section of this report.




                                                3
                     II. Audit Findings and Recommendations

A. Security Management
  The security management component of this audit involved the examination of the policies and
  procedures that are the foundation of Medco’s overall IT security controls. We evaluated
  Medco’s ability to develop security policies, manage risk, assign security-related responsibility,
  and monitor the effectiveness of various system-related controls.

  Medco has implemented a series of formal policies and procedures that comprise a
  comprehensive security management program. Medco’s security management program is
  developed, maintained, and annually reviewed by Medco Global Security; their responsibilities
  include creating policies to protect against threats or improper use of protected health
  information, HIPAA compliance, and to provide central governance and coordination. Medco
  has also developed a thorough risk management methodology, and has procedures to document,
  track, and alleviate or accept identified risks. We also reviewed Medco’s human resources
  policies and procedures related to the security aspects of hiring, training, transferring, and
  terminating employees.

  Nothing came to our attention to indicate that Medco does not have an adequate security
  management program.

B. Access Controls
  Access controls are the policies, procedures, and controls used to prevent or detect unauthorized
  physical or logical access to sensitive resources.

  We examined the physical access controls of a Medco office complex and a separate data center
  facility, both in New Jersey. We also examined the logical controls protecting sensitive data in
  Medco’s network environment and claims processing related applications.

  The access controls observed during this audit included, but were not limited to:
  •   Procedures for granting and revoking physical access privileges to the data centers;
  •   Adequate intrusion detection and incident response capabilities;
  •   Controls over firewall configuration and security;
  •   Use of software tools to monitor and filter e-mail and Internet activity; and
  •   Strict identification and authentication requirements.

  However, we did note several opportunities for improvement related to Medco’s physical and
  logical access controls.




                                                   4
  •   Controls for securely managing changes to the operating platform and claims processing
      application;
  •   Controls for monitoring privileged user activity on the operating platform;
  •   Procedures for routinely updating and patching the operating platforms; and
  •   Procedures for monitoring configuration through vulnerability scans.

  Nothing came to our attention to indicate that Medco does not have adequate controls related to
  configuration management.

D. Contingency Planning
  We reviewed the following elements of Medco’s contingency planning program to determine
  whether controls were in place to prevent or minimize damage and interruptions to business
  operations when disastrous events occur:
  •   Business continuity plans for several business units, data center operations, pharmacies, and
      customer service;
  •   Business continuity plans for the check writing facility;
  •   Disaster recovery plan for the claims processing system;
  •   Disaster recovery plan tests conducted in conjunction with the recovery site; and
  •   Emergency response procedures and training.

  We determined that the service continuity documentation reviewed contained the critical
  elements suggested by NIST SP 800-34, “Contingency Planning Guide for IT Systems.” Medco
  has identified and prioritized the systems and resources that are critical to business operations,
  and has developed detailed procedures to recover those systems and resources.

  Nothing came to our attention to indicate that Medco has not implemented adequate controls
  related to contingency planning.

E. Claims Adjudication
  The following sections detail our review of the applications and business processes supporting
  Medco’s claims adjudication process.

  Application Configuration Management

  The OIG evaluated the policies and procedures governing software development and change
  control of Medco’s claims processing applications.

  Medco has extensive policies and procedures related to application configuration management.
  Medco has adopted a traditional systems development lifecycle methodology that IT personnel
  follow during routine software modifications. The following controls related to testing and
  approvals of software modifications were observed:



                                                  7
•   Medco has adopted practices that allow modifications to be tracked throughout the change
    process;
•   Code, unit, system, and quality testing are all conducted in accordance with industry
    standards; and
•   Medco uses an automated tool to move the code between software libraries and ensure
    adequate segregation of duties.

Claims Processing System

We evaluated the input, processing, and output controls associated with Medco’s claims
adjudication systems. We determined that Medco has implemented policies and procedures to
help ensure that:
• Claims scheduled for payment are actually paid;
• Claims are monitored as they are processed through the systems with real time tracking of the
  system’s performance; and
• Paper claims that are received in the contracted mail room are tracked to ensure timely
  processing (aging reports).

Debarment

Medco employees download the Health and Human Services (HHS) OIG debarment list every
month and compare it to the Medco pharmacy master database. Any debarred pharmacies that
appear in Medco’s pharmacy master database are promptly removed. Removing the pharmacy
from the master database prevents claims submitted by that pharmacy from processing
successfully during the claims adjudication process. However, Medco’s procedures only
consider the HHS debarment list and not the debarred provider listing maintained by the OPM
OIG. Failure to update the debarment database with the OPM OIG exclusion list increases the
risk that claims are being paid to providers that are debarred by OPM but not by HHS.

Recommendation 3
We recommend that Medco implement procedures to routinely update its pharmacy master
database with OPM OIG’s debarred provider listing.

Note: this recommendation does not apply to Medco’s BCBS contract, as Medco does not
process retail pharmacy claims for BCBS.

Medco Response:
“Medco notes that in addition to screening against the HHS OIG list referenced in the audit
finding, Medco also checks the Excluded Parties List System (EPLS) maintained by the
General Services Administration. It is Medco’s understanding that all executive agencies of
the federal government provide information relating to exclusion, debarment or suspension
for inclusion on the EPLS. Medco notes that OPM is included in the list of agencies in EPLS.
Medco believes that by screening against the EPLS, Medco meets OPMs requirements. Please
refer to the attached monthly review memo (Attachment 1) that was provided to OPM OIG.
The memo notes that the General Services Administration list is checked monthly.”

                                               8
OIG Reply:
Although the EPLS contains much of the same data as the OPM OIG’s debarred provider listing,
the EPLS is not acceptable for use by FEHBP contractors when making decisions that impact
FEHBP members.

The EPLS is a public site that contains limited data regarding OPM suspended and debarred
providers. It does not provide FEHBP contractors with all the data elements needed to make
decisions regarding payment/nonpayment of FEHBP claims.

OPM requires its contracted insurance carriers to process all FEHBP claims against a sanctions
database that is updated monthly with OPM’s debarment and suspension data. OPM uses a
secure webpage to electronically disseminate debarment/suspension/termination information to
FEHBP carriers, and this webpage is OIG’s exclusive method for distributing debarment and
suspension data to FEHBP carriers.

OPM may also post messages on the secure webpage concerning debarment and suspension-
related operational matters, as well as corrections to prior data. Therefore, it is important that
contractors visit the webpage periodically between the regular postings.

We continue to recommend that Medco implement procedures to routinely update its pharmacy
master database with OPM OIG’s debarred provider listing.

Special Investigations and Fraud

The OIG evaluated the Medco policies and procedures governing special investigations and
fraud. We determined that Medco has substantial policies and procedures in place to detect,
manage, and report fraud. There were no opportunities for improvement noted during our
review.

Application Controls Testing

We conducted a testing exercise on Medco’s claims adjudication applications to validate the
systems’ claims processing controls. The exercise involved developing test claims designed with
inherent flaws and evaluating the manner in which Medco’s systems processed the claims.

The sections below document opportunities for improvement related to Medco’s application
controls.

a) Invalid Prescriber

   Medco’s claims processing applications do not have the ability to detect prescriptions
   containing invalid prescriber identifiers (identifiers not assigned to an active licensed
   provider).


                                                  9
We submitted test claims for prescriptions written by non-existent prescribers. The National
Provider Identifier (NPI) numbers for these providers had a valid structure (last number was
a correctly calculated check digit), but they were not assigned to a valid prescribing doctor.
We also submitted test claims that contained an NPI number without an accurate check digit.

Medco’s system appropriately suspended the claims containing NPI numbers with incorrect
check digits. However, all claims with an accurate check digit were processed and paid
without encountering any system edits or suspensions, even though the NPI numbers were
not assigned to a valid prescriber.

Although retail pharmacies should validate prescribers before submitting a prescription
claim, we believe that it is the responsibility of Medco to verify that prescriptions are written
by valid prescribers prior to authorizing a claim for payment. A centralized method of
verifying NPI numbers would be more efficient than relying on the efforts of various
pharmacies whose processes Medco cannot control, and would also provide Medco assurance
all claims are verified with consistent quality.

The weakness in the current control structure could be exploited by individuals submitting
fraudulent prescriptions from an invalid prescriber. If the pharmacist filling the prescription
does not detect the anomaly, Medco will pay benefits for the claim and the individual will
gain unauthorized access to prescription drugs. This risk of fraudulent activity is even
greater for mail order claims, where Medco is also the pharmacy filling the prescription and
there is no second level of control added from a retail pharmacist. Medco confirmed that the
only validation it does of prescriber identifiers on both retail and mail order claims is to
validate the NPI check digit and verify that the prescriber is not on the OIG debarred
provider list.

Recommendation 4
We recommend that Medco make the appropriate system modifications in order to detect
claims being processed with invalid prescriber identifiers. Prescriber identifiers include:
NPI, Drug Enforcement Agency (DEA) number, Unique Provider Identification Number
(UPIN), or state license number.

Claims that do not contain a valid prescriber identifier should not be rejected at the point of
sale, but Medco should attempt to retroactively obtain a valid identifier for these claims.
When unable to obtain a valid prescriber identifier, Medco should pursue reimbursement
from the pharmacy or member that submitted the claim. All funds recovered should be
returned to OPM via the FEHBP carriers.

Medco Response:
“Medco notes that each plan determines the edits that are in place for that plan. Currently,
no plan has requested the type of edit described above. Moreover, the recommendation, if
implemented by the plans, will result in patients not obtaining drugs from prescribers who
are licensed prescribers. This is because not all prescribers have NPI numbers at this
time. Furthermore, while the above recommendation directs Medco to the CMS file, it
does not take into account that the CMS file (1) is furnished only every 4-6 weeks, and
                                             10
    thus does not provide current information; (2) does not require that the prescriber register
    using the exact name that might be on the patient’s prescription; (3) does not provide all
    the addresses at which a prescriber practices (it only has one location); (4) does not
    provide termination dates for NPI numbers; and (5) does not provide clear practice area
    information. Thus, relying on this database would result in legitimate claims being
    rejected at point of sale. The recommendation also does not take into account instances
    where, for example, a vaccine is administered at a pharmacy so the NPI number for the
    prescriber could be the same as the NPI of the pharmacy.

    For 2012, CMS continues to instruct plans not to reject a claim at point of sale for invalid
    NPI numbers, so OPM’s recommendation runs counter to CMS’s requirement and will
    result in patients not receiving drugs to which they are entitled that are prescribed by
    licensed prescribers. However, if the plans choose to implement this recommendation,
    Medco will implement it.”

    Additional comments from Medco’s FEHBP clients:

    GEHA: “We concur with Medco’s response and would not want to implement an edit that
    would prevent enrollees from receiving medications to which they are entitled.”

    OIG Reply:
    Medco is correct that for 2012, the Department of Health and Human Services (HHS) Center
    for Medicare and Medicaid Services (CMS) instructed plans not to reject Medicare Part D
    claims at a point of sale for invalid NPI numbers. The 2012 CMS Final Call Letter to all
    Medicare prescription drug plan sponsors states that “sponsors should not reject a pharmacy
    claim solely on the basis of an invalid prescriber identifier unless the issue can be resolved at
    point-of-sale.” However, this same document referenced by Medco also states that
    Prescription Drug Event (PDE) records submitted to CMS must contain one of four types of
    prescriber identifiers (including NPI), and that plans must ensure that these identifiers are
    active and valid. Therefore, if a valid prescriber ID is not included on the Part D claim, the
    sponsor must retroactively acquire a valid ID before submitting the PDE to CMS. The Call
    Letter also states that CMS is considering limiting acceptable prescriber identifiers to NPIs in
    2013.

    Furthermore, an audit report from the Inspector General at HHS recommended that Part D
    plans “institute procedures to (1) identify invalid identifiers in the prescriber identifier field
    on Part D drug claims and (2) flag for review Part D drug claims that contain invalid
    identifiers in the prescriber identifier field1.”

    Our draft audit report recommended that Medco make the appropriate system
    modifications in order to detect claims being processed with invalid NPIs. In order to be
    consistent with HHS, we modified the recommendation so that it does not explicitly require
    NPI numbers to be validated. Rather, we recommend that Medco’s validation of the

1
 HHS OIG Audit Report “Invalid Prescriber Identifiers on Medicare Part D Drug Claims.”
http://oig.hhs.gov/oei/reports/oei-03-09-00140.pdf (page 4/25)

                                                     11
   prescriber can be done by any of the four valid prescriber identifiers allowed by HHS (DEA,
   NPI, UPIN, or state license numbers). We also recommend that claims should not be
   rejected at the point of sale for missing a valid prescriber identifier, but Medco should
   attempt to retroactively obtain a valid identifier for these claims. When unable to obtain a
   valid prescriber identifier, Medco should pursue reimbursement from the pharmacy or
   member that submitted the claim.

b) Expired Prescriptions

   Medco’s claims processing applications do not have the controls in place to accurately
   process claims based on state laws for expired prescriptions.

   We submitted several test claims for prescriptions where the fill date was between 5 months
   and 2 years after the prescription was written. Medco’s system denied all claims that were
   filled more than one year after the issue date, and paid all claims that were less than one year
   old. However, several U.S. states and territories have prescription laws that do not conform
   to the one year expiration timeline, and Medco is not accurately processing claims from these
   areas.

   For example, prescriptions from Puerto Rico expire after 6 months, but Medco’s system
   would inappropriately process and pay claims from there that were between 6 and 12 months
   old.

   In addition, prescriptions from the states listed below expire at a point in time greater than
   one year. Medco’s system inappropriately denies claims for prescriptions older than one year
   but within the legal limit for that area. This practice could prevent FEHB members from
   receiving medication that they are legally entitled to.

   States where prescriptions expire later than one year:
   •      Alabama (no expiration)              •    Massachusetts (no expiration)
   •      California (no expiration)           •    New Mexico (no expiration)
   •      Connecticut (no expiration)          •    New York (no expiration)
   •      District of Columbia (no             •    Oregon (24 months)
          expiration)                          •    South Carolina (24 months)
   •      Georgia (no expiration)              •    South Dakota (no expiration)
   •      Idaho (15 months)                    •    Wyoming (24 months)
   •      Iowa (18 months)
   •      Maine (15 months)

   Recommendation 5
   We recommend that Medco make the appropriate system modifications to alert pharmacies in
   Puerto Rico when they attempt to submit claims for expired prescriptions (those more than
   six months old).



                                               12
Medco Response:
“Medco notes that effective November 2011, the edit that previously allowed claims at
Puerto Rico pharmacies to be filled up to 12 months after the prescription was written was
changed in our system. Going forward, any claims submitted from a Puerto Rico
pharmacy will now reject if the fill date would be more than 6 months from the date on
which the prescription was written. With regard to mail service, as per the case law from
2000, the US Court of Appeals for the First Circuit affirmed a district court decision that
the Pharmacy Act of PR is not applicable to mail-order services based outside of Puerto
Rico that supply pharmaceuticals to customers within Puerto Rico.”

OIG Reply:
As part of the audit resolution process, we recommend that Medco provide OPM’s HIO with
evidence that its systems have been modified to alert pharmacies in Puerto Rico when they
attempt to submit claims for expired prescriptions.

Recommendation 6
We recommend that Medco make the appropriate system modifications to approve and pay
claims greater than one year old if allowed by the prescription laws in that state.

Note: this recommendation does not apply to Medco’s BCBS contract, as Medco does not
process retail pharmacy claims for BCBS.

Medco Response:
“First, pharmacy regulations in the states in which the back end pharmacies are located
do not allow a prescription that is over one year from when it is written to be transferred
into the pharmacy. Thus, Medco is adhering to pharmacy law. For retail pharmacies,
plans have the ability to determine coverage for a prescription, even if the coverage limits
are more stringent than provided by pharmacy law. So, for example, pharmacy law might
allow a member to obtain a refill of a prescription a few days after obtaining the original
fill; however, the plan, as a matter of plan design, might use a refill too soon edit to
prevent that refill from being paid for by the plan. Similarly, pharmacy law would allow
any valid prescription to be filled, but the plan design might not cover a particular drug if
it were off the formulary; or required prior authorization. The same logic applies for
payment of claims for prescriptions that are over a year old. This might be allowed by
pharmacy law in certain states; however, it is generally not contemplated by our plans.

If the plans decide to implement this recommendation and allow prescriptions over a year
old to be filled at retail pharmacies, Medco will implement the request of the plans.”

Additional comments from Medco’s FEHBP clients:

GEHA: “Since the majority of the Plan’s prescription spend is through mail order, we
would need to maintain a standardized one year renewal period for all prescriptions.”



                                            13
     FSBP: We wish “to keep within our contract and allow only one (1) year for prescription
     refills.”

     OIG Reply:
     We acknowledge the fact that individual plans maintain the right to set coverage limits that
     are more stringent than state pharmacy laws, and that GEHA and FSBP have done so. We
     recommend that APWU and SAMBA inform Medco whether they wish to continue the one-
     year expiration limit or to allow claims to adjudicate based on prescription expiration dates
     outlined in state laws.

F. Health Insurance Portability and Accountability Act
  The OIG reviewed Medco’s efforts to maintain compliance with the security and privacy
  standards of HIPAA.

  Medco has implemented a series of IT security policies and procedures to adequately address the
  requirements of the HIPAA security rule. Medco has also developed a series of privacy policies
  and procedures that directly addresses all requirements of the HIPAA privacy rule. Each line of
  business, subsidiary, and some departments have designated a Privacy Official who has the
  responsibility of ensuring their area is compliant with HIPAA Privacy and Medco's HIPAA
  Privacy policies. Medco employees receive HIPAA-related training during new hire orientation,
  as well as annual refresher training.

  Nothing came to our attention that caused us to believe that Medco is not in compliance with the
  various requirements of HIPAA regulations.




                                                 14
                    III. Major Contributors to This Report

This audit report was prepared by the U.S. Office of Personnel Management, Office of Inspector
General, Information Systems Audits Group. The following individuals participated in the audit
and the preparation of this report:
•                  , Group Chief
•                     , Senior Team Leader
•                        , IT Auditor
•                     Auditor
•                         , IT Auditor
•                   , IT Auditor




                                              15
                                                                                 Medco Health Solutions, Inc.
                                                                                   100 Parsons Pond Drive
                                                                                  Franklin Lakes, NJ 07417

                                                                                     tel 201 269 3400
                                                                                      www.medco.com




Medco Response:
Medco notes that in addition to screening against the HHS OIG list referenced in the audit
finding, Medco also checks the Excluded Parties List System (EPLS) maintained by the General
Services Administration. It is Medco’s understanding that all executive agencies of the federal
government provide information relating to exclusion, debarment or suspension for inclusion on
the EPLS. Medco notes that OPM is included in the list of agencies in EPLS. Medco believes
that by screening against the EPLS, Medco meets OPMs requirements. Please refer to the
attached monthly review memo (Attachment 1) that was provided to OPM OIG. The memo notes
that the General Services Administration list is checked monthly.


Invalid Prescriber: Recommendation 4
Medco’s claims processing applications do not have the ability to detect prescriptions
containing invalid (non-existent) prescribers. We submitted test claims for prescriptions written
by non-existent prescribers. The National Provider Identifier (NPI) numbers for these providers
had a valid structure (last number was a correctly calculated check digit), but they were not
assigned to a valid prescribing doctor. We also submitted test claims that contained a NPI
number without an accurate check digit. Medco’s system appropriately suspended the claims
containing NPI numbers with incorrect check digits. However, all claims with an accurate check
digit were processed and paid without encountering any system edits or suspensions, even
though the NPI numbers were not assigned to a valid prescriber.

Although retail pharmacies should validate prescribers before submitting a prescription
claim, we believe that it is the responsibility of Medco to verify that prescriptions are written
by valid prescribers prior to authorizing a claim for payment. A centralized method of
verifying NPI numbers would be more efficient than relying on the efforts of various
pharmacies whose processes Medco cannot control, and would also provide Medco assurance
all claims are verified with consistent quality. The weakness in the current control structure
could be exploited by individuals submitting fraudulent prescriptions from an invalid prescriber.
If the pharmacist filling the prescription does not detect the anomaly, Medco will pay benefits for
the claim and the individual will gain unauthorized access to prescription drugs.

A current database of valid NPI numbers is actively maintained by the Centers for Medicare
and Medicaid Services. Medco could leverage this resource to make improvements to its
claims adjudication process.

We recommend that Medco make the appropriate system modifications in order to detect
claims being processed with invalid NPIs.

Medco Response:
Medco notes that each plan determines the edits that are in place for that plan. Currently, no plan
has requested the type of edit described above. Moreover, the recommendation, if implemented
by the plans, will result in patients not obtaining drugs from prescribers who are licensed
prescribers. This is because not all prescribers have NPI numbers at this time. Furthermore,
                                                                                    Medco Health Solutions, Inc.
                                                                                      100 Parsons Pond Drive
                                                                                     Franklin Lakes, NJ 07417

                                                                                        tel 201 269 3400
                                                                                         www.medco.com




while the above recommendation directs Medco to the CMS file, it does not take into account
that the CMS file (1) is furnished only every 4-6 weeks, and thus does not provide current
information; (2) does not require that the prescriber register using the exact name that might be
on the patient’s prescription; (3) does not provide all the addresses at which a prescriber
practices (it only has one location); (4) does not provide termination dates for NPI numbers; and
(5) does not provide clear practice area information. Thus, relying on this database would result
in legitimate claims being rejected at point of sale. The recommendation also does not take into
account instances where, for example, a vaccine is administered at a pharmacy so the NPI
number for the prescriber could be the same as the NPI of the pharmacy.

For 2012, CMS continues to instruct plans not to reject a claim at point of sale for invalid NPI
numbers, so OPM’s recommendation runs counter to CMS’s requirement and will result in
patients not receiving drugs to which they are entitled that are prescribed by licensed prescribers.
However, if the plans choose to implement this recommendation, Medco will implement it.


Expired Prescriptions: Recommendation 5
We recommend that Medco make the appropriate system modifications to alert pharmacies in
Puerto Rico when they attempt to submit claims for expired prescriptions (those more than
six months old).

Medco Response:
Medco notes that effective November 2011, the edit that previously allowed claims at Puerto
Rico pharmacies to be filled up to 12 months after the prescription was written was changed in
our system. Going forward, any claims submitted from a Puerto Rico pharmacy will now reject if
the fill date would be more than 6 months from the date on which the prescription was written.
With regard to mail service, as per the case law from 2000, the US Court of Appeals for the First
Circuit affirmed a district court decision that the Pharmacy Act of PR is not applicable to mail-
order services based outside of Puerto Rico that supply pharmaceuticals to customers within
Puerto Rico.


Expired Prescriptions: Recommendation 6
We recommend that Medco make the appropriate system modifications to approve and pay
claims greater than one year old if allowed by the prescription laws in that state.

Medco Response:
First, pharmacy regulations in the states in which the back end pharmacies are located do not
allow a prescription that is over one year from when it is written to be transferred into the
pharmacy. Thus, Medco is adhering to pharmacy law. For retail pharmacies, plans have the
ability to determine coverage for a prescription, even if the coverage limits are more stringent
than provided by pharmacy law. So, for example, pharmacy law might allow a member to obtain
a refill of a prescription a few days after obtaining the original fill; however, the plan, as a matter
of plan design, might use a refill too soon edit to prevent that refill from being paid for by the
                                                                                 Medco Health Solutions, Inc.
                                                                                   100 Parsons Pond Drive
                                                                                  Franklin Lakes, NJ 07417

                                                                                     tel 201 269 3400
                                                                                      www.medco.com




plan. Similarly, pharmacy law would allow any valid prescription to be filled, but the plan design
might not cover a particular drug if it were off the formulary; or required prior authorization. The
same logic applies for payment of claims for prescriptions that are over a year old. This might
be allowed by pharmacy law in certain states; however, it is generally not contemplated by our
plans.

If the plans decide to implement this recommendation and allow prescriptions over a year old to
be filled at retail pharmacies, Medco will implement the request of the plans.
